APPENDIX A
STATE OF INDIANA
SS
COUNTY OF MARION
IN THE MARION SUPERIOR COURT
CAUSE NO. 49D13-1009-ES-040244
IN RE THE ESTATE OF AL KATZ, DECEASED
Hon. James A. Joven, Special Judge
JUDGMENT OF APPELLATE ATTORNEYS FEES
AWARD
Pursuant to Orders issued by the Indiana
Supreme Court and the Indiana Court of Appeals,
Robert W. York, the Court appointed Successor
Personal Representative and attorney for the
supervised Estate in this cause, filed his “Verified
Petition for Determination of Appellate Attorney’s
Fees.” With that Petition, the Estate asked this Court
to determine the amount Of attorney’s fees that the
Estate incurred for York’s appellate services to the
Estate in Appellate Cases No. 49A05-1710-ES-02475
and No. 18A-ES-01721 (jointly the “Appellate
Cases”). The appellate courts both awarded appellate
attorney’s fees to the Estate, but remanded the fee
calculation to this Court. On August 7, 2019, the
Court issued its Order Setting Hearing on York’s Fee
Petition for September 17, 2019 at 11:00 AM. On
September 2, 2019, Newman filed his Verified
Response in opposition to the Fee Petition. On
September 3, 2019, at 11:19 PM and again at 11:30
A1

PM, Newman filed his Verified Motion To Cancel the
Hearing. York filed his Response in opposition to
Newman’s Motion to Cancel, and on September 10,
2019, the Court denied Newman’s Motion. On
September 13, 2019, Newman filed his Verified
Motion regarding Decedent’s great grandchildren,
and York filed his Response in opposition that same
day. On September 14, 2019, Newman filed his
Motion for Reconsideration of the denial of his Motion
to Cancel the Hearing and York filed his Response in
opposition. On September 15, 2019, Newman filed his
verified
“Supplement”
to
his
Motion
for
Reconsideration. On September 16, 2019, the Court
issued its Order denying Newman’s motion regarding
the great grandchildren and further provided that the
hearing would proceed on September 17, 2019, as
previously ordered. Also, on September 16, 2019, the
Court issued its separate Order denying the Motion
for Reconsideration. On September 17, 2019, at 8:51
AM, Newman filed his “Verified Request for Judicial
Notice,” attaching a press release and a Florida
newspaper article apparently pertaining only to
Newman’s push “for a more robust Holocaust
education in the community.” During the Petition
hearing on September 17, 2019, the Court orally
denied from the bench Newman’s Request to Take
Judicial Notice, and the Court now reaffirms such
denial on the basis that the material sought by
Newman to be judicially noticed provides nothing of
adjudicative value to anything pending before the
Court.
The hearing on York’s Fee Petition commenced
on September 17, 2019, at the scheduled time.
A2

Appearing in person were York and attorney Robert
Zaban, an Estate claimant. Also present in person was
Karl L. Mulvaney, a recognized appellate attorney
who York would call as an expert witness. No other
person was present, and that although Newman had
timely and proper notice of the hearing, he did not
appear in person or by counsel, nor did Newman
submit anything to the Court providing any reason
for his inability to attend the hearing.
During the hearing, the Court admitted into
evidence the following exhibits, without objection and
sponsored by testimony: Exhibit 1 — The CCS in
Appellate Case No. 49A05- 1710-ES-02475; Exhibit 2
— The CCS in Appellate Case No. 18A-ES-01721;
Exhibit 3 — The biographical information of Karl L.
Mulvaney, Exhibit 4 — the properly verified Affidavit
of Karl L. Mulvaney; Exhibit 5 - York’s biographical
information; and, Exhibit 6 — York’s Appellate Time
Records, which were the same records that he
submitted with his Verified Fee Petition. The Court
granted York’s motion that based upon Karl
Mulvaney’s credentials and experience justifying his
service as an expert witness in appellate practice and
appellate attorney’s fees, he be permitted to express
his opinions as an expert witness. Mulvaney then
testified (in summary) that he adopted all of his
statements set forth in Exhibit 4, but further
explained that through the use of the electronic
appellate CCSs, he was able to open and read
pertinent appellate materials filed in the Appellate
Cases, and observed that Newman had gone to
extraordinary lengths to file each and every possible
appellate document that could be filed, thereby
A3

compelling York, in the interests of proper appellate
advocacy, to consider all such filings and to respond
appropriately, thereby increasing the appellate fees
the Estate incurred.
Next, York testified in summary that he
reasserted his verified statements in his Fee Petition,
and supplemented the information in his Exhibit 5
biographical information by reciting in part his
professional experience in the Indiana appellate
process. York further supported the accuracy of his
Appellate Time Records, but stated that he had
inadvertently included 6.7 hours he expended
regarding Newman’s Petition to Transfer filed in
Appellate Cause No. 18A-ES- 01721, and withdrew
those 6.7 hours from his fee request because he had
not requested the Supreme Court to assess those fees
against Newman.
With respect to Newman’s Response, York
requested the Court to weigh Newman’s layman’s
opinions as to what he thinks are reasonable appellate
fees against the weight of the evidence that Newman
has remained suspended from the practice of law by
the Indiana Supreme Court since 2012, in part for his
failure to provide a client with an accounting of his
hours and for charging an unreasonable fee. York
then rested on his Fee Petition. Robert Zaban did not
testify or provide argument regarding the Fee
Petition.
Having considered the Fee Petition, Newman’s
Response to that Petition, the testimony and exhibits
admitted at the hearing and the hearing argument,
and, being duly advised in the premises, the Court
A4

now finds that:
1. The Court has subject matter jurisdiction
over the issues presented by the Fee Petition and in
personam jurisdiction over the involved parties.
2. The submission of the Fee Petition was to
the Court Without the intervention of a jury.
3. The submission was made upon the Fee
Petition filed by the Estate, following remand to this
Court by the Indiana Supreme Court and the Indiana
Court of Appeals. Those appellate courts granted the
award of the Estate’s appellate attorney fees, but
ordered this Court to calculate the award amount.
4. The submission was made only as to the Fee
Petition and other matters remain pending with
respect to the administration of the Estate in this
cause.
5. The submission was considered in open court
and on the record.
6. York appeared at the hearing in person, as
Successor Personal Representative of the Estate, and
as attorney for the Estate. Newman failed to appear
after receiving appropriate notice.
7. The two Appellate Cases involved numerous
and extensive filings by Newman, which went beyond
the normal amount of briefing for appeals, and which
required consideration of and responses by York. And,
in addition to the initial briefing before the Indiana
Court of Appeals, Newman sought rehearing, and
then transfer to the Indiana Supreme Court.
8. York expended 446.5 hours in providing
reasonable, just, and successful appellate services to
the Estate in the Appellate Cases, as documented in
York’s Appellate Time Records.
A5

9. A reasonable rate for York’s appellate
services is $375.00 per hour.
10. The Estate thereby incurred York’s
reasonable appellate attorney’s fees in the total
amount of $ 167,437.50.
11. Pursuant to Orders of the Indiana Supreme
Court and the Indiana Court of Appeals, this Court
determines that the amount Newman should pay the
Estate for the appellate attorney’s fees the Estate
incurred as Appellee in Appellate Case No. 49A051710-ES-02475 and Appellate Case No. 18A-ES-01721
is $167,437.50.
12. The Court further concludes that the Court
should enter a judgment in favor of the Estate and
against Newman in the above amount ordered.
13. There is no just reason for delay and this is
a final judgment as to the award of appellate
attorney’s fees to the Estate ONLY.
The Court therefore ORDERS, ADJUDGES,
and DECREES that judgment is entered, in favor of
the Estate of A1 Katz and against Lawrence T.
Newman, and regarding appellate attorney’s fees the
Estate incurred as Appellee in Appellate Case No.
49A05-1710-ES-02475 and Appellate Case No. 18AES-01721, in the total principal amount of
$167,437.50.
The Court further ORDERS, ADJUDGES, and
DECREES that the Clerk of the Marion Superior
Court shall note the entry of this Judgment in the
Chronological Case Summary, the Judgment Docket,
and shall enter this Order in the Record of Judgments
and Orders (RJO).
ENTERED: October 22, 2019
James A. Joven, Special Judge Marion Superior
A6

Court, Civil Division 13
Distribution to:
Robert W. York, rwyork@york-law.com
Beverly R. Newman, helpelders@hotmail.com
Lawrence T. Newman, helpelders@hotmail.com
Robert A. Zaban, robert.zaban@gmail.com
Louis Howard Katz, lkatz@gwu.edu
Julie Sophia SondhelmJsondhelm@jfgi.org
Mina Shirazi, Kian Shirazi, Emilie Sondheim, Kenna
Sondheim, jsondhelm@jfgi.org

A7

APPENDIX B
MEMORANDUM DECISION
Pursuant to Ind. Appellate Rule 65(D), this
Memorandum Decision shall not be regarded as
precedent or cited before any court except for the
purpose of establishing the defense of res judicata,
collateral estoppel, or the law of the case.
Appellant Pro Se
Lawrence T. Newman
Bradenton, Florida
IN THE COURT OF APPEALS OF INDIANA
In Re: The Estate of A1 Katz, Deceased
and
Lawrence T. Newman
Appellan t-Petitioner,
v.
Robert W. York,
Appellee-Respondent
October 7, 2020
Court of Appeals Case No. 20A-ES-140
Appeal from the Marion Superior Court
The Honorable James A. Joven, Judge
Trial Court Cause No. 49D13-1009-ES-40244
Tavitas, Judge.

B1

Case Summary
Lawrence Newman, pro se, appeals the trial court’s
award of appellate attorney fees to Robert York
(“Attorney York”), personal representative of the
Estate of A1 Katz (“Estate”). We affirm.
Issues
[2] Newman raises numerous issues on appeal. We
revise the issues as follows:
I. Whether Newman is entitled to raise arguments on
behalf of beneficiaries to the Estate.
II. Whether Newman is entitled to raise arguments
not presented to the trial court.
III. Whether the tried court properly ordered the
appellate attorney fees to be paid to the Estate.
IV. Whether the trial court was biased and prejudiced
against Newman.
V. Whether Newman properly challenges prior
appellate court orders awarding appellate attorney
fees.
VI. Whether the trial court properly awarded
$167,437.50 in appellate attorney fees.
VII. Whether the appellate attorney fee award
B2

violated Newman’s constitutional rights.

Facts
[3] This is the fourth appeal instituted by Newman or
his wife, Beverly, regarding the Estate of A1 Katz
(“Estate”). Beverly was Katz’s daughter, but Katz’s
last will and testament “intentionally [left Beverly]
nothing” due to an estrangement. In re Estate of
Katz, No. 18A-ES-1721 (“Appellate Cause 1721”), slip
op. at 2 (Ind. Ct. App. Dec. 31, 2018), trans. denied,,
cert, denied, 140 S. Ct. 534 (2019). After Katz’s death
in 2010, Beverly was appointed as personal
representative, and Newman, an attorney, filed an
appearance on behalf of Beverly. The Indiana
Supreme Court, however, suspended Newman in
December 2011.1 See In re Newman, 958 N.E.2d 792
(Ind. 2011).
[4] In 2013 and 2014, Newman filed several motions
for reimbursement of alleged administrative expenses.
In 2015, the trial court removed Beverly as personal
representative and appointed Attorney York to serve
as the successor personal representative and attorney
of the Estate. Under Appellate Cause No. 49A021506-ES-642 (“Appellate Cause No. 642”), Beverly
appealed the trial court’s order removing her, but this
Court dismissed Beverly’s appeal on August 21, 2015.
On November 10, 2015, this Court denied Beverly’s
petition for rehearing, and our Supreme Court denied
Beverly’s petition to transfer.
[5] Newman continued filing claims and various
B3

pleadings in the Estate proceedings, and he filed
another appeal under Appellate Cause Number 1710ES-2475 (“Appellate Cause No. 2475”) regarding
three of the trial court’s orders, including an
injunction order. Attorney York filed a motion to
dismiss, and on January 4, 2018, this Court entered
an order which granted in part and denied in part
Attorney York’s motion to dismiss. Specifically, this
Court ordered Newman’s appeal from two of the trial
court’s orders to be dismissed with prejudice, but
denied the motion to dismiss Newman’s appeal of one
of the trial court’s orders. On June 6, 2018, Attorney
York filed a second verified motion to dismiss the
appeal. On September 12, 2018, this Court granted
Attorney York’s motion to dismiss the appeal, granted
Attorney York’s request for appellate attorney fees,
and remanded to the trial court to calculate the
amount of appellate attorney fees.
[6] On October 12, 2018, Newman filed a petition for
rehearing. On November 19, 2018, this Court denied
Newman’s petition for rehearing and granted
Attorney York’s request for additional appellate
attorney fees. Newman then filed a petition to
transfer, which our Supreme Court denied. Our
Supreme Court granted Attorney York’s request for
attorney’s fees and remanded to the trial court “to
determine the amount of attorney’s fees the appellee
is entitled to recover from the appellant related to the
transfer proceedings.” Appellate Cause No. 2475,
April 12, 2019 order.

B4

[7] Meanwhile, the trial court issued an order on June
12, 2018, regarding the sale of certain property
belonging to the Estate. In Appellate Cause No. 1721,
Newman appealed the order and argued: Newman
argues that Attorney York was wrongfully appointed
because of his long-standing animus against
[Newman]; that the trial court’s disparate treatment
of [Newman] and Attorney York evidence bias; the
trial court’s determinations that [Newman’s]
administrative expense claims were dismissed or
denied are erroneous; and that [Newman’s]
administrative expense claims have statutory priority
over federal and state tax claims. Appellate Cause No.
1721, slip op. at 15. We affirmed the trial court and,
pursuant to Indiana Appellate Rule 66(E), we
concluded that Attorney York as personal
representative was entitled to appellate attorney fees.
We remanded “to the trial court to determine the
proper amount of the appellate fee award.” Id. at 18.
[8] Newman filed a petition for rehearing, which this
Court denied. Newman then filed a petition to
transfer, which our Supreme Court denied. Newman
then filed a petition for a writ of certiorari, which the
United States Supreme Court denied on November
18, 2019.
[9] Attorney York filed a petition with the trial court
for a determination of appellate attorney fees.
Attorney York detailed all of the appellate pleadings
and proceedings and noted the following regarding
Appellate Cause No. 2475:
B5

34. In summary, Newman filed 320 pages of Motions,
Briefs, Responses and the like, in addition to 599
pages of documents.
35. York in summary filed 193 pages of Motions,
Responses, Briefs and the like, in addition to 366[
Jpages of documents from the record which had not
been included by Newman. Appellant’s App. Vol. II p.
125. Regarding Appellate Cause No. 1721, Attorney
York detailed the pleadings and appellate proceedings
and noted:
65. In summary, Newman filed 192 pages of Motions,
Briefs, Responses and the like, in addition to 254
pages of documents.
66. York in summary filed 116 pages of Motions,
Responses, Briefs and the like, in addition to 346[
Jpages of documents from the record which had not
been included by Newman.
Id. at 128.
In the Appellate Cases Newman filed a combined total
of 512 pages of Motions, Briefs, Responses and the
like, in addition to a combined 853 pages of
documents. In order to properly respond to Newman’s
voluminous submissions, York was nevertheless
required to file a combined total of 309 pages of
Motions, Responses, Briefs and the like, in addition to
a combined 712[ ] pages of documents from the record
which had not been included by Newman. Id. at 130.
York requested that the trial court assess his fees at

B6

$375.00 an hour for 453.20 hours.
[10] Newman filed an objection to Attorney York’s
request, and the trial court set the matter for hearing.
Newman, however, did not appear for the hearing.
Attorney Robert Zaban, a claimant in the Estate,
appeared. With the trial court’s approval, Attorney
York proceeded “in summary fashion.” Tr. Vol. II p. 8.
Attorney Karl Mulvaney testified as an expert on
Attorney York’s behalf regarding attorney fees in the
appellate matters. Attorney York reduced his
requested fees by 6.7 hours pursuant to one of
Newman’s objections.
[11] The trial court issued findings of fact and
conclusions thereon granting Attorney York’s petition
for appellate attorney fees as follows:
7. The two Appellate Cases involved numerous and
extensive filings by Newman, which went beyond the
normal amount of briefing for appeals, and which
required consideration of and responses by York. And,
in addition to the initial briefing before the Indiana
Court of Appeals, Newman sought rehearing, and
then transfer to the Indiana Supreme Court.
8. York expended 446.5 hours in providing reasonable,
just, and successful appellate services to the Estate in
the Appellate Cases, as documented in York’s
Appellate Time Records.
9. A reasonable rate for York’s appellate services is
$375.00 per hour.
B7

10. The Estate thereby incurred York’s reasonable
appellate attorney’s fees in the total amount of
$167,437.50.
11. Pursuant to Orders of the Indiana Supreme Court
and the Indiana Court of Appeals, this Court
determines that the amount Newman should pay the
Estate for the appellate attorney’s fees the Estate
incurred as Appellee in Appellate Case No. 49A051710-ES-02475 and Appellate Case No. 18A-ES-01721
is $167,437.50. Appellant’s App. Vol. II pp. 92-93.
Newman filed a motion to correct error, which the
trial court denied. Newman now appeals.
Analysis
[12] We begin by noting that Attorney York has not
filed an appellee’s brief. When an appellee fails to
submit a brief, we do not undertake the burden of
developing arguments for the appellee, and we apply a
less stringent standard of review. Jenkins v. Jenkins,
17 N.E.3d 350, 351 (Ind. Ct. App. 2014). We may
reverse if the appellant establishes prima facie error,
which is error at first sight, on first appearance, or on
the face of it. Id. at 351-52. This rule relieves us of the
burden of controverting arguments advanced in favor
of reversal where that burden properly rests with the
appellee. Id. at 352. We are obligated, however, to
correctly apply the law to the facts in the record in
order to determine whether reversal is required. Id.
[13] We also note that Newman is proceeding pro se.
We note that “a pro se litigant is held to the same
B8

standards as a trained attorney and is afforded no
inherent leniency simply by virtue of being selfrepresented.” Zavodnik v. Harper, 17 N.E.3d 259, 266
(Ind. 2014). “An appellant who proceeds pro se is held
to the same established rules of procedure that
trained legal counsel is bound to follow and, therefore,
must be prepared to accept the consequences of his or
her action.” Perry v. Anonymous Physician 1, 25
N.E.3d 103, 105 n.l (Ind. Ct. App. 2014), trans.
denied, cert, denied, 136 S. Ct. 227 (2015). Although
we prefer to decide cases on their merits, arguments
are waived where an appellant’s noncompliance with
the rules of appellate procedure is so substantial it
impedes our appellate consideration of the errors. Id.
Indiana Appellate Rule 46(A)(8)(a) requires that the
argument section of a brief “contain the contentions
of the appellant on the issues presented, supported
by cogent reasoning. Each contention must be
supported by citations to the authorities, statutes,
and the Appendix or parts of the Record on Appeal
relied on . . . .” We will not consider an assertion on
appeal when there is no cogent argument supported
by authority and there are no references tothe record
as required by the rules. Id. We will not become an
advocate for a party or address arguments that are
inappropriate or too poorly developed or expressed to
be understood. Id.
[14]Newman repeatedly argues in his appellant’s brief
that he is entitled to relief pursuant to Article 1,
2

Section 26 of the Indiana Constitution because the
trial court “suspended the operation of applicable
B9

law.” Appellant’s Br. pp. 10, 13,15, 15 n.l, 17, 18, 2829,37, 41, 54, 57. Newman, however, cites no relevant
authority on the application of Article 1, Section 26.
Accordingly, Newman’s contentions regarding Article
1, Section 26 are waived for failure to make acogent
argument. See Ind. Appellate Rule 46(A)(8);
Loomisv.Ameritech Corp., 764 N.E.2d 658,668 (Ind.
Ct. App. 2002) (holding that the failure to present a
cogent argument waives the issue for appellate
review), trans.denied.

Article 1, Section 26 of the Indiana Constitution
provides: “The operation of the laws shall never be
suspended, except by the authority of the General
Assembly.”
I. Service ofFee Petition on Beneficiaries
[15] The first issue is whether Newman is entitled to
raise arguments on behalf of beneficiaries to the
Estate. According to Newman, Attorney York failed to
serve his fee petition on certain beneficiaries or
interested persons and, thus, the trial court should
not have considered the fee petition. Newman
contends that the failure to serve the beneficiaries
violated Newman’s constitutional rights because the
beneficiaries were denied “their right to object to
York’s fees and participate in the hearing thereto, to
Newman’s detriment.” Appellant’s Br. p. 14.
[16] Although Newman was an attorney in Indiana,
his license has been suspended since 2011. This Court
BIO

previously informed Newman that he “may only
pursue claims on his own behalf.” Appellant’s App.
Vol. II p. 94 (Appellate Cause 2475, Jan. 4, 2018
Order). We again remind Newman that, as a pro se
litigant, he cannot assert claims on behalf of others.
[17] To the extent Newman attempts to argue that
the failure to serve the beneficiaries with the fee
petition
in
some
way
impacts
Newman’s
constitutional rights, this argument is waived for
Newman’s failure to make a cogent argument and for
Newman’s failure to cite any relevant authority
supporting the argument. See Ind. Appellate Rule
46(A)(8); Loomis, 764 N.E.2d at 668 (holding that the
failure to present a cogent argument waives the issue
for appellate review).
II. Waiver ofIssues
[18] Newman next argues that: (1) Attorney York was
not properly sworn in as a witness; (2) Attorney
York’s fee petition was not properly introduced into
evidence; and (3) Attorney Mulvaney’s expert opinion
was inadmissible and insufficient. We afford a trial
court broad discretion in ruling on the admissibility of
evidence. Sims v. Pappas, 73 N.E.3d 700, 705 (Ind.
2017). We will disturb the trial court’s ruling only
where the trial court has abused its discretion. Id.
“An abuse of discretion occurs when the trial court’s
decision is clearly against the logic and effect of the
facts and circumstances before it.” Id.
Bll

[19] We note that Newman did not appear for the
hearing on Attorney York’s petition for appellate
attorney fees and that the trial court conducted the
proceedings in a summary fashion. “Summary
proceedings function to efficiently resolve disputes by
allowing parties and the court to forego [sic] the use
of formal rules of procedure and evidence and instead
allow the court to base its findings and conclusions
upon the arguments of counsel and limited evidence.”
Bogner v. Bogner, 29 N.E.3d 733, 739 (Ind. 2015).
Our Supreme Court has required a timely objection to
summary proceedings. See id. at 741 (holding that, “if
Father did not want to proceed summarily and
believed that a full evidentiary hearing was necessary,
that objection should have been raised at the time of
the hearing”).
[20] Because Newman did not appear at the hearing,
he did not object to the summary proceedings and did
not object to the admission of any of the evidence he
now argues was inadmissible. “Generally, a party
cannot raise an argument for the first time on
appeal.” Anonymous, M.D. v. Hendricks, 994 N.E.2d
324, 327 (Ind. Ct. App. 2013). Accordingly, Newman
has waived his contentions regarding the admission of
this evidence.
[21] To the extent Newman argues that Attorney
Mulvaney’s opinion was insufficient because his
opinion was based on “baseless and irrelevant
factors”, this argument goes to the weight of the
evidence, not the admissibility. Appellant’s Br. p. 32.
B12

“[T]he lack of facts and reasoning, which may be
brought out on cross-examination of the expert, goes
to the weight to be given to the expert’s opinion, not
its admissibility.” Summerhill v. Klauer, 49 N.E.3d
175, 182 (Ind. Ct. App. 2015). Accordingly, the trial
court did not abuse its discretion.
Ill Payment ofFees to the Estate
[22] Newman next argues that the trial court erred by
ordering the appellate attorney fees to be paid to the
Estate. Newman contends that the fees should have
been ordered to be paid directly to Attorney York.
[23] The trial court appointed Attorney York as
successor personal representative of the Estate, and
Attorney York was also attorney for the Estate. As
such, Attorney York was entitled to compensation for
his services. Indiana Code Section 29-1-10-13
provides: “An attorney performing services for the
estate at the instance of the personal representative
shall have such compensation therefor out of the
estate as the court shall deem just and reasonable.”
(emphasis added). In each of the appeals, appellate
attorney fees were awarded to the Attorney York as
successor personal representative of the Estate, not in
his individual capacity. Pursuant to Indiana Code
Section 29-1-10-13, those appellate attorney fees must
be paid out of the estate, and accordingly, the trial
court properly ordered Newman to pay the attorney
fee award to the Estate, not Attorney York.

B13

\

IV. Bias
[24] Newman argues that the trial court was biased
and prejudiced against him.3 “Adverse rulings and
findings by a trial judge are not sufficient reason to
believe the judge has a personal bias or prejudice.”
L.G. v. S.L., 88 N.E.3d 1069, 1073 (Ind. 2018). We
“credit judges with the ability to remain objective
notwithstanding their having been exposed to
information which might tend to prejudice lay
persons.” Id. “The law presumes that a judge is
unbiased and unprejudiced.” Id. “To overcome this
presumption, the moving party must establish that
the judge has personal prejudice for or against a
party.” Id. “Such bias or prejudice exists only where
there is an undisputed claim or the judge has
expressed an opinion on the merits of the controversy
before him [or her].” Id. “[Prejudice must be shown
by the judge’s trial conduct; it cannot be inferred from
his [or her] subjective views.” Richardson v.
Richardson, 34 N.E.3d 696, 703 (Ind. Ct. App. 2015).
A party “must show that the trial judge’s action and
demeanor crossed the barrier of impartiality and
prejudiced” that party’s case. Id. at 703-04.
[25] In support of his argument that the trial court
was biased against him, Newman contends: (1) in its
order, the trial court called him “Newman”
throughout the order rather than first calling him
“Lawrence Newman”; (2) during the hearing, the trial
court said it was “well aware of [Attorney York’s]
credentials”; (3) the trial court noted in its order that
Newman was a suspended attorney, “diminished the
B14

weight given to Newman’s legal position,” and
“ostensibly intended to embarrass Newman”; (4) the
trial court failed to discuss a long history of disputes
between Newman and Attorney York; (5) during
thehearing, the trial court asked Attorney Zaban if he
had any questions for the witnesses; and (6) the case
was withdrawn from the trial court pursuant to Trial
Rule 53.1 on August 27, 2017, but remanded to the
trial court by our Supreme Court on September 12,
2017. Appellant’s Br. p. 25.
[26] None of Newman’s allegations overcomes the
presumption that the trial court was unbiased and
unprejudiced. Rather, Newman’s allegations are
frivolous and fail to demonstrate that the trial court’s
“action[s] and demeanor crossed the barrier of
impartiality and prejudiced” Newman’s case in any
way; has personal prejudice for or against Newman;
or expressed an opinion on the merits of the
controversy before him. Richardson, 34 N.E.3d at
703-04; L.G., 88 N.E.3d at 1073. Newman’s argument
fails.
V Challenges to Prior Appellate Orders
[27] Newman repeatedly challenges the orders from
our Supreme Court and this Court awarding Attorney
York, as appellee in the appeals, appellate attorney
fees. We remind Newman that “[t]he doctrine of res
judicata bars relitigation of an issue where there has
been a final adjudication on the merits of the same
issue between the same parties or their privies by a
court of competent jurisdiction.” Counceller v.
B15

CounceJJer, 810 N.E.2d 372, 376 (Ind. Ct. App. 2004).
To the extent Newman seeks to relitigate the final
orders awarding appellate attorney fees by our
Supreme Court and this Court, those issues are
barred by res judicata.
VI. Appellate Attorney Fee Award
[28] Newman challenges the trial court’s award of
$167,437.50 in appellate attorney fees. “We review a
trial court’s award of attorney’s fees for an abuse of
discretion.” River Ridge Dev. Auth. v. Outfront
Media, LLC, 146 N.E.3d 906, 912 (Ind. 2020). “An
abuse of discretion occurs when the court’s decision
either clearly contravenes the logic and effect of the
facts and circumstances or misinterprets the law.” Id.
“To make this determination, we review any findings
of fact for clear error and any legal conclusions de
novo.” Id.
[29] Newman raises several challenges to the
appellate attorney fee award. He contends: (1) the
trial court applied the wrong legal standard; (2) the
trial court awarded appellate attorney fees for time
periods not covered by the orders awarding such fees;
(3) the trial court awarded appellate attorney fees for
time that was not related to appellate work; (4)
Attorney York’s claimed hours were “grosslyinflated”; and (5) the trial court should have
sanctioned Attorney York for his “documented
perjuries, false statements under oath, gross
overcharging, charging for matters not connected
with Newman’s Appeals, and charging for matters not
B16

subject to the appellate court’s orders granting
appellate attorney fees.” Appellant’s Br. pp. 38, 54.
[30] “In assessing what qualifies as a reasonable fee,
trial courts have broad discretion in determining a fee
award and may consider several factors.” Rainbow
Realty Grp., Inc. v. Carter, 131 N.E.3d 168, 178 (Ind.
2019). “When evaluating the reasonableness of an
attorney fee award, the starting point is the hours
worked and the hourly rate charged.” Himsel v
Indiana Pork Producers Ass’n, 95 N.E.3d 101, 113
(Ind. Ct. App. 2018). “The trial court may consider a
number of other factors, including the responsibility
of the parties in incurring the attorney fees and the
judge’s personal expertise and knowledge.” Id. “In
addition, a court may consider the factors listed in
Indiana Professional Conduct Rule 1.5(a) governing
the reasonableness of a fee for disciplinary purposes,
but it is not required to expressly do so.” Id. at 11314.
[31] At the hearing on Attorney York’s petition for
appellate attorney fees, Attorney York presented
evidence that he spent 453.20 hours addressing
appellate issues. He conceded, based upon Newman’s
response to his petition, that he improperly included
6.7 hours for addressing the petition to transfer in
Appellate Cause No. 1721, for which Attorney York
had not requested an award of appellate attorney fees.
Accordingly, the trial court did not award appellate
attorney fees for those 6.7 hours. Attorney Mulvaney
testified that: (1) an hourly rate of $375.00 per hour
was reasonable; (2) a typical appeal usually costs a
minimum of $30,000.00; and (3) the two appeals
B17

brought by Newman involved extraordinarily
extensive, lengthy pleadings, including petitions for
rehearing and petitions for transfer. [32] In its order,
the trial court found that: “[t]he two Appellate Cases
involved numerous and extensive filings by Newman,
which went beyond the normal amount of briefing for
appeals, and which required consideration of and
responses by York”; “York expended 446.5 hours in
providing reasonable, just, and successful appellate
services to the Estate in the Appellate Cases, as
documented in York’s Appellate Time Records”; and
“[a] reasonable rate for York’s appellate services is
$375.00 per hour.” Appellant’s App. Vol. II p. 92. We
find no indication that the trial court used the wrong
standard in assessing the attorney fees, as alleged by
Newman.
[33] Newman challenges Attorney York’s claim of
forty-two hours of work between October 26, 2017,
and January 6, 2018, for Attorney York’s first motion
to dismiss in Appellate Cause No. 2475. On
September 12, 2018, this Court granted Attorney
York’s second motion to dismiss the appeal, granted
Attorney York’s request for appellate attorney fees,
and remanded to the trial court to calculate the
amount of appellate attorney fees. Our order did not
limit the appellate attorney fees to those that
addressed the second motion to dismiss. Accordingly,
the trial court did not abuse its discretion by
awarding appellate attorney fees for those forty-two
claimed hours.
B18

34] Newman also challenges the trial court’s award of
appellate attorney fees for Attorney York’s claimed
hours on September 26, 2018, for Appellate Cause No.
2475. Attorney York’s time entry for that date
provides: “Consider and research regarding Motion to
Reconsider Appellate Order. Research and memo
regarding appellate attorneys’ fees. Review Beverly’s
deposition. Work on Response to Motion to
Reconsider.” Appellant’s App. Vol. II p. 136. Newman
claims that Beverly’s deposition did not relate to the
appeal. At the hearing, Attorney York, however,
testified that Beverly’s deposition related to the
injunction, which was a subject of the appeal.
Accordingly, the trial court did not abuse its
discretion by awarding those appellate attorney fees.
[35] Additionally, Newman challenges 25.7 hours that
Attorney York claimed between January 29, 2019,
and February 5, 2019, for preparing a response to
Newman’s petition for rehearing in Appellate Cause
No. 1721. In our memorandum decision in Appellate
Cause No. 1721, we held: “[W]e conclude that
Attorney York as personal representative is entitled
to appellate attorney fees, and we remand to the trial
court to determine the proper amount of the appellate
fee award.” Appellate Cause No. 1721, slip op. at 18.
Newman then filed a petition for rehearing, which
Attorney York responded to, and this Court denied
the petition for rehearing. Our memorandum decision
was broadly worded and did not limit the appellate
attorney fee award; we cannot say the trial court
abused its discretion by awarding appellate attorney
B19

fees for Attorney York preparing the response to
Newman’s petition for rehearing. Next, Newman
contends that Attorney York spent too much time
responding to several of Newman’s pleadings.
Newman instituted several frivolous appeals; filed
numerous, lengthy petitions at every opportunity; and
has been generally overly-litigious. Given the number,
length, and often rambling nature of Newman’s
filings, we find Newman’s argument that Attorney
York spent too much time responding to Newman to
be unavailing.
[37] Newman also argues that the trial court should
have sanctioned Attorney York rather than awarding
him appellate attorney fees. We see no indication that
Newman requested such a sanction. Moreover, given
Newman’s litigiousness and the difficulty involved in
addressing Newman’s filings, we find no indication
that Attorney York’s requested fees were “obviously
inflated,” “shocking to the conscience,” or “grossly
excessive” as Newman contends. Appellant’s Br. p. 54.
Newman’s contention that the trial court should have
sanctioned Attorney York fails.
[38] Attorney York’s requested appellate attorney fees
were reasonable, and the trial court did not abuse its
discretion by awarding Attorney York, as personal
representative, $167,437.50 in appellate attorney fees.
Although it is a large attorney fee award, it is
warranted by Newman’s conduct. We note that
“[g]ross abuse of the right to appellate review ‘crowds
our court to the detriment of meritorious actions, and
B20

should not go unrebuked.’” Posey v. Lafayette Bank
& Tr. Co., 512 N.E.2d 155, 156 (Ind. 1987) (quoting
Marshall v. Reeves, 262 Ind. 403, 404, 316 N.E.2d
828, 830 (1974)), cert, denied\ 485 U.S. 988, 108 S. Ct.
1292 (1988).
VII. Constitutional Claims
[39] Finally, Newman contends that the appellate
attorney fee award violated his rights under the
Eighth Amendment and the Fourteenth Amendment
of the United States Constitution and Article 1,
Section 16 of the Indiana Constitution.
[40] The Eighth Amendment provides: “Excessive bail
shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.” Similarly,
Article 1, Section 16 of the Indiana Constitution
provides: “Excessive bail shall not be required.
Excessive fines shall not be imposed. Cruel and
unusual punishments shall not be inflicted. All
penalties shall be proportioned to the nature of the
offense.” Newman seems to argue that the appellate
attorney fee award is an excessive fine. Newman,
however, cites no authority for the proposition that
appellate attorney fees awarded in an estate matter,
pursuant to Indiana Appellate Rule 66, qualify as an
“excessive fine” under either constitutional provision.
This argument is waived for Newman’s failure to
make a cogent argument. See Ind. Appellate Rule
46(A)(8); Loomis, 764 N.E.2d at 668 (holding that the
B21

failure to present a cogent argument waives the issue
for appellate review).
[41] Newman also argues that the appellate attorney
fee award violates his rights under the Privileges and
Immunities Clause of the Fourteenth Amendment,
which provides: “No State shall make or enforce any
law which shall abridge the privileges or immunities
of citizens of the United States.” Newman argues that
the appellate attorney fees award was an excessive
fine prohibited by the Privileges and Immunities
Clause. Newman, however, again cites no authority
for the proposition that appellate attorney fees
awarded in an estate matter pursuant to Indiana
Appellate Rule 66 qualify as an “excessive fine.” This
argument is waived for Newman’s failure to make a
cogent argument. See Ind. Appellate Rule 46(A)(8);
Loomis, 764 N.E.2d at 668 (holding that the failure to
present a cogent argument waives the issue for
appellate review).
Conclusion
[42] The trial court properly awarded $167,437.50 in
appellate attorney fees pursuant to multiple orders in
Appellate Cause No. 2475 and Appellate Cause No.
1721. We affirm.
[43] Affirmed.
Kirsch, J., and Pyle, J., concur.
B22

APPENDIX C
IN THE COURT OF APPEALS OF INDIANA
Lawrence T. Newman,
Appellant,
v.
Robert W. York,
Appellee.
Court of Appeals Cause No. 20A-ES-140
Order
[1] Appellant, pro se, filed Verified Petition for
Rehearing of Appellant. Appellee, by counsel, filed
Appellee’s Brief in Opposition to Petition for
Rehearing.
[2] Having reviewed the matter, the Court finds and
orders as follows:
[3] Appellant’s Petition for Rehearing is denied.
[4] Ordered this 12/7/2020.
[5] Kirsch, Pyle, Tavitas, JJ., concur.
For the Court,
Chief Judge

Cl

APPENDIX D
In the Indiana Supreme Court
In re' The Estate of A1 Katz, Deceased
and
Lawrence T. Newman,
Appellant(s)
v.
Robert W. York,
Appellee(s).
Court of Appeals Case No. 20A-ES*00140
Trial Court Case No. 49D13-1009-ES-40244
Order
This matter has come before the Indiana
Supreme Court on a petition to transfer jurisdiction,
filed pursuant to Indiana Appellate Rules 56(B) and
57, following the issuance of a decision by the Court
of Appeals. The Court has reviewed the decision of
the Court of Appeals, and the submitted record on
appeal, all briefs filed in the Court of Appeals, and
all materials filed in connection with the request to
transfer jurisdiction have been made available to the
Court for review. Each participating member has
had the opportunity to voice that Justice’s views on
the case in conference with the other Justices, and
each participating member of the Court has voted on
the petition.
D1

Being duly advised, the Court DENIES the
petition to transfer.
Done at Indianapolis, Indiana, on 4/20/2021.

Loretta H. Rush
Chief Justice of Indiana
All Justices concur.

D2

